<html>
<title> - SECURITY OF U.S. NUCLEAR WEAPONS AND NUCLEAR WEAPONS FACILITIES</title>
<body><pre>[Senate Hearing 107-589]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-589
 
    SECURITY OF U.S. NUCLEAR WEAPONS AND NUCLEAR WEAPONS FACILITIES 

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON STRATEGIC

                                 of the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 13, 2001

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

81-033 PDF                       WASHINGTON : 2002 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  



















                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director

              Judith A. Ansley, Republican Staff Director

                                 ______

                       Subcommittee on Strategic

                   JACK REED, Rhode Island, Chairman

ROBERT C. BYRD, West Virginia        WAYNE ALLARD, Colorado
DANIEL K. AKAKA, Hawaii              STROM THURMOND, South Carolina
BILL NELSON, Florida                 BOB SMITH, New Hampshire
E. BENJAMIN NELSON, Nebraska         JAMES M. INHOFE, Oklahoma
JEFF BINGAMAN, New Mexico            JEFF SESSIONS, Alabama

                                  (ii)

  





























                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

    Security of U.S. Nuclear Weapons and Nuclear Weapons Facilities

                           December 13, 2001

                                                                   Page

Wells, Dr. Linton, II, Principal Deputy Assistant Secretary of 
  Defense for Command, Control, Communications, and Intelligence.     2
Blaisdell, Maj. Gen. Franklin J., Director, Nuclear and 
  Counterproliferation, Office of the Deputy Chief of Staff for 
  Air and Space Operations, U.S. Air Force.......................     4
Dwyer, RADM Dennis M., Director, Strategic Systems Program 
  Office, U.S. Navy..............................................    10
Haeckel, Brig. Gen. Ronald J., USAF, Acting Deputy Administrator 
  for Defense Programs, National Nuclear Security Administration.    13

                                 (iii)


    SECURITY OF U.S. NUCLEAR WEAPONS AND NUCLEAR WEAPONS FACILITIES

                              ----------                              


                      THURSDAY, DECEMBER 13, 2001

                               U.S. Senate,
                         Subcommittee on Strategic,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-222, Russell Senate Office Building, Senator Jack Reed 
(chairman of the subcommittee) presiding.
    Committee members present: Senators Reed, Ben Nelson, 
Allard, and Sessions.
    Committee staff member present: Madelyn R. Creedon, 
counsel.
    Minority staff members present: L. David Cherington, 
minority counsel; and Brian R. Green, professional staff 
member.
    Staff assistants present: Dara R. Alpert and Thomas C. 
Moore.
    Committee members' assistants present: Barry Gene Wright, 
assistant to Senator Byrd; Marshall A. Hevron, assistant to 
Senator Landrieu; Elizabeth King, assistant to Senator Reed; 
Davelyn Noelani Kalipi, assistant to Senator Akaka; Eric 
Pierce, assistant to Senator Ben Nelson; Wayne Glass, assistant 
to Senator Bingaman; Margaret Hemenway, assistant to Senator 
Smith; and Arch Galloway II, assistant to Senator Sessions.

        OPENING STATEMENT OF SENATOR JACK REED, CHAIRMAN

    Senator Reed. Good afternoon. Let me call this hearing to 
order. I'd like to welcome our witnesses. Today the Strategic 
Subcommittee meets to receive testimony and discuss a matter of 
great importance to United States national security interests, 
the security of United States nuclear weapons. While the 
security of nuclear weapons has always been a high priority, 
since September 11 we have become even more cognizant of the 
importance of ensuring that these weapons remain secure.
    In this hearing we will cover all aspects of nuclear 
weapons security, including personnel security, the physical 
security of sites, security during transportation, emergency 
response capabilities, and the security features of nuclear 
weapons themselves. This hearing will start in open session. At 
the conclusion of the witnesses' statements and one round of 
questions, we will proceed to room 232A of the Russell Building 
for a closed session.
    Our witnesses this morning represent all elements of the 
nuclear weapons complex. They are: Dr. Linton Wells, Principal 
Deputy Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence; Maj. Gen. Franklin J. 
Blaisdell, Director of Nuclear and Counterproliferation, Office 
of the Deputy Chief of Staff for Air and Space Operations, U.S. 
Air Force; RADM Dennis M. Dwyer, Director of Strategic Systems 
Program Office, U.S. Navy; and Brig. Gen. Ron Haeckel, U.S. Air 
Force, Acting Deputy Administrator for Defense Programs, 
National Nuclear Security Administration.
    Security associated with nuclear weapons has, by necessity, 
always been high. Today, we would like to discuss all aspects 
of the security of U.S. nuclear weapons, but particularly the 
impact of September 11 on the approach to nuclear weapons 
security. I would like each of the witnesses to discuss what 
improvements have been made since September 11, what 
improvements still need to be made, what is needed to carry out 
these improvements, and whether these identified improvements 
are enough to maintain high security for these weapons.
    The Department of Energy (DOE) and the National Nuclear 
Security Administration (NNSA) have requested an additional 
$118 million for increased nuclear security requirements. I 
would like to discuss this request and also discuss whether 
there are additional needs in the Air Force or the Navy. I 
would like to welcome each of you to the subcommittee today and 
we look forward to hearing from you on this important issue.
    I expect that we will be joined shortly by my colleague, 
the ranking member, Senator Allard of Colorado. When he does 
arrive, I would interrupt the witnesses to allow Senator Allard 
to give his statement. But at this point, I would like to 
recognize Dr. Wells. Your statement will be made a part of the 
record, Dr. Wells.

 STATEMENT OF DR. LINTON WELLS II, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY OF DEFENSE FOR COMMAND, CONTROL, COMMUNICATIONS, AND 
                          INTELLIGENCE

    Dr. Wells. Mr. Chairman, thank you very much. I appreciate 
the opportunity to speak today, to talk about the Department of 
Defense's policies and procedures for ensuring the security of 
nuclear weapons in our custody. I've submitted a written 
statement for the record, as you've noted. Because of their 
destructive power and their political as well as their military 
importance, nuclear weapons require special protection, indeed 
the highest level of protection that we can provide. The 
storage, handling, transportation, and maintenance of nuclear 
weapons are grave responsibilities the Department takes very 
seriously. This has never been more important than now, in 
light of the events of the September 11 terrorist attacks 
against the United States.
    Within the Office of the Secretary of Defense (OSD), my 
office is responsible for the policies that provide for the 
physical protection of nuclear weapons, and for the personnel 
reliability program. This ensures only the best qualified and 
most reliable people are selected to perform nuclear weapons 
related functions. The services who have physical custody of 
the weapons implement these policies, and the Office of the 
Joint Chiefs of Staff provides oversight through periodic 
inspections that are conducted through the Defense Threat 
Reduction Agency, or DTRA.
    This is a system of overlapping, interlocking programs and 
procedures, defense in depth, if you will, whose resultant 
security is greater than the sum of its parts. These are our 
highest priority weapons, and they receive the highest level of 
protection. I provided additional information in my written 
statement and welcome your questions.
    [The prepared statement of Dr. Wells follows:]
               Prepared Statement by Dr. Linton Wells II
    Mr Chairman, and members of the subcommittee, I want to thank you 
for giving me the opportunity to discuss with you today the Department 
of Defense's (DOD) policies and procedures for ensuring the security of 
nuclear weapons in our custody. I commend you for conducting this 
hearing and for assembling a panel that can provide both a policy and 
an operational picture to the subcommittee.
    Because of their destructive power and political as well as 
military importance, nuclear weapons require special protection--the 
highest level of protection we can provide. The storage, handling, 
transportation, and maintenance of nuclear weapons are grave 
responsibilities that the Department takes very seriously. This has 
never been more important than now in light of the events of the 
September 11 terrorist attacks against the United States.
    Within the Office of the Secretary of Defense, the Assistant 
Secretary of Defense for Command, Control, Communications, and 
Intelligence is responsible for the policies that provide for the 
physical protection of nuclear weapons and for DOD's Personnel 
Reliability Program (PRP), that ensures only the best qualified and 
most reliable personnel are selected to perform nuclear weapons-related 
functions. The Services, who have physical custody of the weapons, 
implement these policies and the Office of the Joint Chiefs of Staff 
provides oversight through periodic inspections conducted by a team of 
experts assigned to the DTRA.
    While I will concentrate today on the physical protection of 
weapons, it is useful to understand that nuclear weapons are afforded 
both significant and overlapping safety and security protections. It is 
well understood that redundant and failsafe capabilities are designed 
and built into our nuclear weapons. This means they are built to 
function as designed only when all the right electrical and 
environmental inputs are 100 percent accurate. This design philosophy 
also contributes to these weapons' security by providing additional 
protections against unauthorized use.
    The protection of nuclear weapons is achieved through a system of 
complementary programs, procedures, people, infrastructure, equipment, 
and oversight. It is a defense-in-depth approach that seeks to deter 
any potential attacker; however, should that deterrence fail, the 
system is designed to identify a threat as early and as far away from a 
weapon as possible, and then interdict it such that it is never in a 
position to sabotage, destroy, steal, or detonate a nuclear weapon.
    Nuclear weapons are stored in hardened facilities with very strong 
doors, and high security locks and hasps. Protecting those structures 
are combinations of electronic intrusion detection systems, both on the 
buildings themselves and installed along the perimeter of the storage 
site. These systems are continuously monitored by highly trained and 
heavily armed security forces that can interdict any attempt to 
penetrate the site. Assisting these forces are special lighting, visual 
assessment tools, and other capabilities designed to ensure the 
protective force maintains the combat effectiveness edge over any 
attacker.
    When nuclear weapons are moved, the same tight security goes with 
them, whether we move them ourselves or they are delivered to us by the 
Department of Energy.
    Complementing these physical aspects of security are special 
procedural, personnel, and oversight programs designed to ensure that 
only the most reliable people are chosen to work around nuclear 
weapons. No person is ever allowed to work alone on or close to a 
nuclear weapon. Two people with an equal knowledge of the job to be 
performed must be present before any access to a weapon. The people who 
are chosen to be in the nuclear weapons program must undergo strict, 
comprehensive and recurring vetting to ensure reliability is maintained 
at the highest level. Top-level background investigations are 
conducted; some, in critical positions, will undergo a periodic 
polygraph examination; all will have personnel records reviewed for 
administrative or disciplinary issues; all will have a medical 
screening to include a records assessment by trained medical personnel 
to identify physical or psychological conditions that may adversely 
affect the inability to work with nuclear weapons. This reliability 
program seeks to maintain these standards through continuous evaluation 
by supervisors and peers alike. Any indication of a problem and the 
person is removed from duties involving weapons until the situation can 
be adjudicated. On top of this are strictly enforced entry control and 
access procedures requiring specialized identification media and 
verification controls. Overlooking the entire program is an integrated 
inspection and assessment process that seeks to ensure we meet and 
maintain the highest nuclear security standards.
    The Department uses a system of complementary oversight and 
inspection processes. To provide oversight independent of the Services, 
the Joint Chiefs of Staff operates the Defense Nuclear Surety 
Inspection (DNSI) Program, through the DTRA. DNSIs are conducted for 
each nuclear capable organization a minimum of once every 5 years. In 
addition, the Services are required to inspect each of their 
organizations to the same strict level of compliance at least once 
every 18 months. The organizations themselves are required to annually 
conduct actual, on-the-ground, force-on-force exercises that pit 
security forces against a mock terrorist force and, periodically, my 
office along with DTRA conducts exercises to verify whether our 
protective policies provide the level of security necessary to deal 
with the changing threat environment. We use the results of these 
exercises and assessments to help us identify problem areas and develop 
new security policy.
    This is a system of overlapping and interlocking programs and 
procedures whose resultant security is greater than the sum of its 
parts. These are our highest priority weapons and they receive the 
highest level of protection.
    From time to time, we conduct additional reviews of our methods of 
protecting nuclear weapons. The Nuclear Command and Control System 
Support Staff (NSS) periodically assesses the health of the system. The 
NSS currently is providing support to a Federal Advisory Committee, 
end-to-end review of the entire system. The assessment is chaired by 
Lt. Gen. (Ret.) Brent Scowcroft, former National Security Advisor, and 
is comprised of seven commissioners selected for their present or 
recent past association with nuclear weapons. I am a member of the 
committee and will soon participate in reviewing the final report. I 
apologize in advance that I am not at liberty to discuss the findings 
of the committee until they are approved by General Scowcroft.
    Mr. Chairman, thank you again for this opportunity to address this 
very important matter. I will be pleased to answer any questions you 
may have.

    Senator Reed. Thank you very much, Secretary Wells. Now I'd 
like to call on Major General Blaisdell for his comments. 
General.

STATEMENT OF MAJ. GEN. FRANKLIN J. BLAISDELL, DIRECTOR, NUCLEAR 
 AND COUNTERPROLIFERATION, OFFICE OF THE DEPUTY CHIEF OF STAFF 
          FOR AIR AND SPACE OPERATIONS, U.S. AIR FORCE

    General Blaisdell. Mr. Chairman, thank you for the 
opportunity to speak to you today about the Air Force's nuclear 
security program. In the interest of time I've submitted a 
formal written statement for the record but will summarize my 
comments here.
    From the most senior levels of Air Force leadership to the 
airmen in the field, Air Force personnel understand the 
tremendous responsibility associated with the safety and 
security of handling nuclear weapons. There is no higher Air 
Force priority than maintaining the surety of our nuclear 
weapons, due to the tremendous military importance and the 
potential consequences of any accident, incident, or 
unauthorized act.
    Accordingly, we've established comprehensive operational 
and oversight procedures to ensure that nuclear weapons and 
weapon systems receive special consideration. During all phases 
of the weapon system lifecycle, positive measures are taken to 
ensure the complete control of nuclear weapons. Security, one 
part of nuclear surety, is carefully considered during each 
phase of the research, development, acquisition, and 
modernization of our existing systems.
    The Air Force's four critical elements of physical security 
are: selection and use of the personnel; two-person policy; 
security procedures and equipment; and security system 
concepts.
    For personnel selection, the screening and selection 
process uses the nuclear weapon Personal Reliability Program 
(PRP), and we accept only the most reliable personnel who are 
individually certified to work nuclear-related duties by their 
unit commander or other senior official. Commanders, 
supervisory medical personnel, and peers continuously monitor 
personnel working under the PRP to ensure continued compliance 
with the PRP standards.
    The two-person policy mandates the presence of a minimum of 
two authorized persons during any operation that may require 
access to nuclear weapons. Each member is capable of detecting 
incorrect or unauthorized procedures with respect to the task 
being performed, and each member is familiar with the 
applicable safety and security requirements.
    Security procedures and equipment, such as the intrusion 
detection systems, and security force personnel ensure positive 
identification and control of all persons entering areas where 
nuclear weapons are present.
    Finally, security system concepts are designed to provide 
deterrence, detection, and denial of individuals who are not 
authorized access to a nuclear weapon.
    To quickly summarize, the Air Force has successfully 
managed its nuclear surety and safety programs for 54 years and 
fully recognized the need to continually monitor and improve 
our nuclear safety and security processes in response to 
dynamic global threats. As you mentioned, the tragedy of 
September 11 reminds us of this threat and the vulnerabilities 
to our nuclear weapons systems.
    Since September 11, we have implemented higher force 
protection levels across the Air Force, and committed Air Force 
assets to around-the-clock combat air patrols (CAPs) over the 
continental United States (CONUS). We've increased base and 
controlled area entry inspections and security checks, 
restricted nuke weapons movements to those necessary to keep 
the force Single Integrated Operational Plan (SIOP) ready. 
We've also limited nuclear weapons maintenance and movements to 
daylight hours, and increased our security force presence 
during those operations. Additionally, we've added armed aerial 
support. We will continue to work on long-term solutions to 
deter and counter these threats.
    There is no room for sub-standard performance when dealing 
with nuclear weapons, and we have in place a layered approach 
of checks and balances to ensure strict compliance. From our 
over-arching procedural guidance to our systems assessment 
programs, personnel screening, and comprehensive surety 
inspection programs, the Air Force aggressively monitors all 
facets of security compliance. While there are still 
challenges, effective intelligence gathering, system 
vulnerability assessments, responsive improvement programs, 
improved communication links, and dedicated Air Force 
professionals will all guarantee the security of our nuclear 
weapons. Thank you, Mr. Chairman.
    [The prepared statement of Major General Blaisdell 
follows:]
      Prepared Statement by Maj. Gen. Franklin J. Blaisdell, USAF
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to speak to you today about Air Force nuclear weapons 
security. Nuclear weapons continue to be at the center of U.S. National 
Security Policy. The Air Force fully understands the value of these 
weapons to America, and as such, affords them the highest protection. 
From the most senior levels of leadership, to the airmen in the field, 
Air Force personnel understand the tremendous responsibility associated 
with safely and securely handling nuclear weapons. Accordingly, the Air 
Force has established comprehensive operational and oversight 
procedures to ensure nuclear weapons and weapon systems receive special 
consideration due to their national policy implications. Due to their 
military importance, their destructive power, and the potential 
consequences of an accident, incident, or unauthorized act, there is no 
higher Air Force priority than maintaining the surety of our nuclear 
weapons.
                               background
    DOD policy specifies four DOD Nuclear Weapon System Safety 
Standards to serve as the foundation for all nuclear weapons safety 
matters: (1) There shall be positive measures to prevent nuclear 
weapons involved in accidents or incidents, or jettisoned weapons, from 
producing a nuclear yield; (2) There shall be positive measures to 
prevent deliberate prearming, arming, launching, or releasing of 
nuclear weapons, except upon execution of emergency war orders or when 
directed by competent authority; (3) There shall be positive measures 
to prevent inadvertent prearming, arming, launching, or releasing of 
nuclear weapons in all normal and credible abnormal environments; and 
(4) There shall be positive measures to ensure adequate security of 
nuclear weapons, under DOD Directive 5210.41.
    It is DOD policy to protect nuclear weapons from loss, theft, 
sabotage, unauthorized use, and unauthorized or accidental damage or 
destruction. This policy is based on a peacetime environment. While 
adherence to prescribed security procedures during wartime may be 
impractical, particularly in a combat theatre, the same peacetime 
philosophy for protecting nuclear weapons remains in effect. However, 
in times of transition to war and during wartime, commanders are 
expected to use those resources available to them to provide security 
for weapons and to ensure their survivability.
    Nuclear weapons require special protection because of their 
political and military importance, their destructive power, and the 
consequences of an unauthorized deliberate or inadvertent prearming, 
launching, firing, or detonation. Nuclear weapons must not be subjected 
to adverse physical environments except when such exposure is dictated 
by operational requirements. The safety of the public, operating 
personnel and property, the protection of weapons from capture, theft, 
damage, and unauthorized use or loss are all of paramount importance 
during all phases of operations involving nuclear weapons.
    Positive measures are taken to ensure the complete physical control 
of nuclear weapons during all phases of their life cycle. To ensure a 
balanced security system, physical security procedures, forces, and 
facilities must be combined. Survivability must be a significant 
consideration in the design of a security system. In providing 
protection for nuclear weapons, accurate assessments must be made of 
all relevant factors including: weapon location, the configuration in 
which they are maintained, the nature and capabilities of potentially 
hostile forces, and the reliability and capabilities of personnel 
responsible for working with or protecting them.
    Security is considered early during the research, development, and 
acquisition of nuclear weapon systems and the modernization and 
updating of our existing systems. DOD components participating in the 
acquisition and development process for new or modernized systems must 
get a security concept of operations approved by the Under Secretary of 
Defense for Policy.
    Physical security requirements have a major impact on the 
affordability and life-cycle costs of a nuclear weapon system. 
Similarly, modernization or product improvement efforts on existing 
systems must include reevaluation of system security provisions early 
in the process to assess the utility of new technology and to determine 
changing security requirements because of changes in deployment mode, 
location of the systems, or other factors.
                       air force responsibilities
    DOD guidance (DOD Directive 3150.2, DOD Nuclear Weapon System 
Safety Program) mandates the Air Force assume the following 
responsibilities: (1) Ensuring the safety and security of all nuclear 
weapons and nuclear weapon systems for which the Air Force has a DOD 
life-cycle management responsibility; (2) Conducting nuclear weapon 
system safety studies, reviews, and safety assessments on U.S. nuclear 
weapons and Allied systems using U.S. nuclear weapons to support the 
DOD Nuclear Weapon System Safety Program; (3) Ensuring nuclear weapons 
technical inspections are conducted; (4) Establishing safety design and 
evaluation criteria for nuclear weapon systems; (5) Conducting safety 
certifications of nuclear weapon systems, including DOD support 
equipment and software that affects nuclear safety; and (6) In 
coordination with the Defense Threat Reduction Agency (DTRA), 
participating in a joint Service working group to define requirements 
for the maintenance of nuclear weapon safety databases.
 safety and security of all nuclear weapons and nuclear weapon systems
    In planning the security system for nuclear weapons, priority of 
efforts and resources are given to the protection of nuclear weapons 
themselves. Additional security is commensurate with the threat to or 
vulnerability of the weapons, space limitations, and environmental 
factors. In order to ensure the safety and security of our nuclear 
weapons and nuclear weapons systems the Air Force focuses on four 
critical elements of physical security; (1) Selection and use of 
personnel, (2) Two-person policy, (3) Security procedures and 
equipment, and (4) Security system concepts.
                     selection and use of personnel
    Personnel associated with and directly influencing the security of 
nuclear weapons are classified as command and supervisory, operational, 
security, support, and maintenance. Individuals are selected for these 
positions after extensive screening. The personnel screening and 
selection process, as well as the requirement for a continuing 
evaluation by supervisors and co-workers, is detailed in DOD Directive 
5210.42 Nuclear Weapon Personnel Reliability Program. The screening 
process used in the Personnel Reliability Program (PRP) ensures all 
individuals are of the utmost reliability and personally certified to 
work nuclear related duties by their unit commander or other senior 
official. Certification may occur after completion of a formal course 
of instruction or experience gained by on-the-job training. All 
personnel having access to nuclear weapons shall have a security 
clearance commensurate with the level of classification of materials to 
which they may have access.
                           two-person policy
    Under the two-person policy, no one individual shall have access to 
a nuclear weapon. During any operation that may require access to 
nuclear weapons, there is a minimum of two authorized persons, each 
capable of detecting incorrect or unauthorized procedures with respect 
to the task to be performed and familiar with applicable safety and 
security requirements. Two authorized personnel are physically 
positioned where they can detect incorrect or unauthorized procedures 
with respect to the task or operation being performed. When application 
of the two-person policy is required, it is enforced by the persons who 
constitute the team during the entire period they are accomplishing the 
task or operation assigned and until they leave the area within which 
the two-person policy is required.
                   security procedures and equipment
    Intrusion detection systems and security force personnel ensure 
positive identification and control of all persons entering limited and 
exclusion areas. Entry control procedures ensure no lone individual is 
permitted in an exclusion area or to have access to a nuclear weapon. 
In addition, maintenance or crew personnel, making up a two-person team 
with a designated sole vouching authority, verify all entries into the 
exclusion area.
                        security system concepts
    Security for nuclear weapons is provided by in-depth systems that 
provide deterrence, detection, delay, and denial of individuals who are 
not authorized access to a nuclear weapon. These same systems provide 
protection from damage attempts including standoff attacks. Security 
systems are designed in response to actual validated threats or 
postulated threats that may arise as adversary intentions develop.
    Detection is accomplished through physical or electronic measures 
that detect possible threats to nuclear weapons at the earliest 
possible point when an attempt or the preparation for an attempt to 
penetrate the system is being made. Delay consists of active and/or 
passive security measures using either equipment or personnel, or a 
combination of both, to inhibit intruders from reaching their 
objective. Denial is the ultimate goal of delay and is the nullifying, 
repulsing, or termination of an attack. Essential to the proper 
operation of security systems are: assessment measures to determine the 
size and intention of an unauthorized intrusion, response by security 
forces specifically designated and trained for countering intruders, 
and diverse and redundant communications to ensure command and control.
    The efficient installation and operation of the security system, 
including the training and exercising of response forces, is 
sufficiently imposing to deter potential attacks. Deterrence is the 
first line of defense, but it is only effective when supported by an 
active, operational security system. Consequently, security forces are 
trained, as they would be expected to be employed. Such training 
includes, at a minimum, use of individual and crew-served weapons, 
small unit tactics, and annual force-on-force exercises.
 nuclear weapon system safety studies, reviews, and safety assessments
    The Air Force safety review process is mandated by Air Force 
Instruction 91-102 Nuclear Weapon System Safety Studies, Operational 
Safety Reviews, and Safety Rules. This instruction provides guidelines 
to ensure nuclear weapons are designed, maintained, transported, 
stored, and operated in a safe and secure manner. The Air Force 
supports these goals by: convening the Nuclear Weapons System Safety 
Group (NWSSG) to evaluate nuclear weapon systems, proposing nuclear 
weapon system safety rules for Secretary of Defense (SECDEF) approval, 
conducting Technical Nuclear Safety Analysis (TNSA), and conducting 
Nuclear Surety Inspections according to Air Force Instruction 90-201, 
Inspector General Activities.
                            nwssg functions
    The NWSSG reviews nuclear weapon system designs and operations to 
determine if they meet the DOD Nuclear Weapon System Safety Standards 
and proposes safety rules and recommends changes to improve nuclear 
weapon system surety.
                    nuclear surety inspections (nsi)
    NSIs are designed to evaluate a unit's capability to manage nuclear 
resources while complying with all nuclear surety requirements. An NSI 
may be combined with other MAJCOM inspections to reduce the number of 
unit inspections.
    NSIs are conducted at each nuclear-capable unit at least every 18 
months. NSI requirements must be completed within 18 months after 
completing the last NSI. The nuclear capable unit is provided the NSI 
rating when all phases are completed. If a unit does not meet the 18-
month inspection requirement and is not granted a waiver, they will be 
decertified. MAJCOM commanders will ensure nuclear weapons are 
maintained in a safe, secure, and reliable environment until the unit 
is recertified. Recertification must be accomplished by conducting an 
Initial NSI. Units may be selected at the discretion of the MAJCOM IG 
to receive a minimum notice inspection that will key on a unit's 
ability to perform its nuclear mission.
    Units are rated in 13 functional areas: Management and 
Administration; Technical Operations; Tools, Test, Tiedown and Handling 
Equipment; Storage and Maintenance Facilities; and Condition of 
Stockpile; Security; Safety; Personnel Reliability Program Management; 
Logistics Movement; Explosive Ordinance Disposal; Nuclear Control Order 
Procedures; Emergency Evacuation Denial and Command Disablement; Use 
Control; and Supply Support. If the unit is rated ``Unsatisfactory'' 
under pass/fail criteria, it may be reinspected prior to inspection 
team's departure. If the unit is not reinspected to at least a 
``Satisfactory'' level, the inspected unit must discontinue that 
portion of its operation until reinspected or corrective measures are 
implemented and approved by the MAJCOM commander pending reinspection. 
A reinspection (NSI or INSI) will be conducted within 90 calendar days 
for units rated ``Unsatisfactory'' that do not achieve an overall 
``Satisfactory'' rating on an on-the-spot reinspection.
      ensuring nuclear weapons technical inspections are conducted
    Air Force Instruction 91-102, Nuclear Weapon System Safety Studies, 
Operational Safety Reviews, and Safety Rules, mandates the requirement 
for Technical Nuclear Safety Analysis (TNSAs). Prepared by the Nuclear 
Weapons Product Support Center, a TNSA is an independent technical 
analysis of the nuclear weapon system. Personnel who prepare the TNSA 
may not represent organizations directly responsible for designing, 
developing, producing, maintaining, operating, or providing logistics 
for the weapon system under evaluation.
    TNSAs describe the weapon system in depth, ensures compliance with 
DOD Nuclear Weapon System Safety Standards in normal and abnormal 
environments, provides engineering analysis of the weapon system 
design, identify deficiencies, and recommend corrective actions for the 
weapon system to comply with AFI 91-107, Design, Evaluation, 
Troubleshooting, and Maintenance Criteria for Nuclear Weapon Systems, 
or DOD Directive 5210.41, Security Policy for Protecting Nuclear 
Weapons. TNSAs also assess physical security features planned for the 
weapon system, identify security deficiencies, and propose necessary 
corrective actions. The analysis also includes a qualitative risk 
assessment of the weapon's likelihood of violating any of the DOD 
Nuclear Weapon System Safety Standards or causing plutonium scatter.
    safety design and evaluation criteria for nuclear weapon systems
    DOD Nuclear Weapon System Safety Standards form the basis for the 
Air Force's nuclear weapon system safety design and evaluation 
criteria. Because the Air Force's goal is to design a system that 
significantly exceeds the basic safety criteria, the weapon system 
designer may add reasonable safety features to improve safety yet meet 
operational design requirements. The Air Force or the Department of 
Defense may prohibit or restrict operational use of a nuclear weapon 
system if the minimum safety criteria are not satisfied.
    The Air Force Safety Center (AFSC) manages the nuclear safety 
design and evaluation program for the Air Force by developing design 
and evaluation criteria, approving deviation requests, and identifying 
criteria for, and approving troubleshooting and maintenance procedures 
and operations on loaded nuclear weapon systems.
safety certifications of nuclear weapon systems, support equipment, and 
                                software
    Air Force Instruction 91-103, Air Force Nuclear Safety 
Certification Program, governs the Air Force's nuclear safety 
certification program. This program evaluates hardware, software, and 
procedures against specific nuclear safety criteria before use with 
nuclear weapons. The program's goal is to prevent nuclear weapon 
accidents and incidents.
    The Air Forces certifies the following hardware and software: 
combat and non-combat delivery vehicles; operational and support 
equipment used to move, support, store, handle, load and unload, or 
mate and demate nuclear weapons; components that directly interface 
(electrically or physically), with a nuclear weapon, critical 
component, certified software, or are identified in a current launch 
activation path; items that could degrade the command, control, and 
status reporting capability; new and currently certified critical 
components and software; all hardware or software used to directly 
control critical functions such as targeting, enable, or launch 
commands or data generation; Tamper Detection Indicators (TDI) used in 
an operational system, as well as TDIs used in a non-operational 
environment for storage and transportation; operational and maintenance 
hardware and software used to command and control critical functions 
and perform status reporting; facility lifting and suspension systems 
(such as cranes, hoists, and suspended frames) used to lift, support, 
or move nuclear weapons; modifications to non-specialized equipment 
that could impact the item's primary structure, electrical and 
hydraulic power systems, load-bearing capacity, steering and braking 
capability, or positive control features; as well as any changes 
resulting in noncompliance with specific directed design criteria. 
Additionally, the Air Force certifies all test equipment that: verifies 
the proper operation of the critical function circuits of a combat 
delivery vehicle or directly interfaces with nuclear weapons or 
operationally certified critical components; operationally certifies, 
decertifies, or verifies proper operation of applicable nuclear 
certified items; or identifies system anomalies or failures in special 
test or maintenance programs.
coordinated effort with the defense threat reduction agency (dtra), to 
   define requirements for the maintenance of nuclear weapon safety 
                               databases
    Per Air Force Instruction 91-102, Nuclear Weapon System Safety 
Studies, Operational Safety Reviews, and Safety Rules, the Air Force in 
conjunction with DTRA, Department of Energy (DOE), and U.S. Strategic 
Command (as part of the NWSSG), reviews nuclear weapon system designs 
and operations to determine if they meet the DOD Nuclear Weapon System 
Safety Standards, proposes safety rules, and recommends changes to 
improve nuclear weapon system surety to the SECDEF for approval through 
the Joint Staff. Specifically, the NWSSG reviews weapon system 
modifications, changes in operational procedures, or proposed tests to 
determine if nuclear surety is affected. The NWSSG requests an 
Operational Plan Data Document (OPDD), or OPDD change, and schedules an 
NWSSG study when nuclear surety is affected. The NWSSG also serves as 
the Air Force focal point for DOE field reviews of nuclear weapon 
system safety rules. The NWSSG publishes a semiannual report containing 
the status of NWSSG recommendations due to Assistant to the Secretary 
of Defense, Nuclear & Biological Defense Programs (ATSD (NCB)) by the 
1st of January and July with information copies to the Chairman Joint 
Chiefs of Staff (CJCS) and DOE. Finally, the NWSSG assigns an Air Force 
member to nuclear safety studies or operational safety reviews 
conducted by other military Services if the Air Force also uses the 
weapon system under evaluation.
                                summary
    The Air Force has aggressively managed its Nuclear Surety and 
Safety Programs for the last 54 years. Nuclear weapons require special 
protection because of their political and military importance, their 
destructive power, and the consequences of an unauthorized deliberate 
or inadvertent prearming, launching, firing, or detonation. When 
dealing with nuclear weapons there is no room for substandard 
performance. The Air Force recognizes the need to continually monitor 
our nuclear safety and security processes in response to the dynamic 
global threat. There will be challenges in the future. Effective 
intelligence gathering, system vulnerability assessments, responsive 
improvement programs, communication, and dedicated Air Force 
professionals are the key. The partnerships we have with the other 
services, government agencies, and other stakeholders will be critical 
to our success. United, we can overcome these challenges and sustain 
our nuclear surety and security into the 21st century.

    Senator Reed. Thank you very much, General Blaisdell. 
Before calling Admiral Dwyer and General Haeckel, I'd like to 
recognize the ranking member, Senator Allard. Senator.

               STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Mr. Chairman, for holding this 
very timely and critical hearing regarding the security of our 
nuclear weapons and our nuclear weapons facilities. I want to 
thank the panel for being willing to come and testify before 
the subcommittee. I appreciate the job that you're doing and 
want to hear what you have to say.
    The events of September 11 have increased everyone's 
awareness of security, not just our own personnel security, but 
the security of our critical public and private 
infrastructures, including Department of Energy and Department 
of Defense facilities. However, this protection goes far beyond 
the physical infrastructure because of the inherent 
destructiveness and political importance of our nuclear 
weapons. The protection of these weapons has always been a top 
priority, and that is our focus today.
    As has been widely reported, it is now apparent that 
terrorists are taking a keen interest in nuclear weapons and 
nuclear materials. The threat of nuclear terrorism, either 
through the acquisition of nuclear weapons, the construction of 
a radiological weapon, or a successful attack on a nuclear 
weapons facility or power plant, is one that we must take very 
seriously. Consequently, the attention given to the security of 
nuclear weapons and nuclear weapons facilities must be 
constant.
    I hope this hearing will provide us with the background and 
insight we need while we consider future congressional action 
that might be useful in ensuring the safety and security of our 
weapons. Again, I thank you, Mr. Chairman, for holding this 
hearing, and I thank all the witnesses for taking time to be 
with us here today.
    Senator Reed. Thank you very much, Senator Allard.
    Now Admiral Dwyer, your comments please.

STATEMENT OF RADM DENNIS M. DWYER, DIRECTOR, STRATEGIC SYSTEMS 
                   PROGRAM OFFICE, U.S. NAVY

    Admiral Dwyer. Mr. Chairman, Senator Allard, thank you for 
this opportunity to address the subcommittee. As the director 
of the Navy's strategic systems, I'm responsible for the 
production, support, and security of our nuclear weapons 
ashore. Accompanying me today is Rear Adm. Charles Griffiths, 
who is the Commander of Submarine Group 9. He is the commander 
of fleet ballistic missile submarines in the Pacific.
    In the Navy, this is in general a good story. We do have 
significant challenges, but I can say with confidence that the 
Navy's nuclear weapons, which are a vital national asset, are 
safe and secure. In the Navy we have a policy to deny access by 
unauthorized personnel to our nuclear weapons. We have multiple 
perimeters for layered security. We also have recapture tactic 
teams available at all times as an added insurance.
    From the moment we receive these weapons from the NNSA, 
they are stored in a high-security area called a limited area. 
This is surrounded by high-security fences and state-of-the-art 
electronic security systems and intrusion detection devices. 
This provides us the ability to monitor and detect any 
unauthorized attempt to breach this limited area.
    Whenever the weapons are moved from building to building 
inside the area, they are enclosed in specially designed 
containers and vehicles that protect them from hostile 
environments. An important component of our nuclear weapons 
security is our Marine Corps security force. The sole 
responsibility of the Marine Corps security force is to prevent 
unauthorized access or theft of nuclear weapons, and should 
that fail, to immediately recapture them.
    The second element of our security program is the ballistic 
missile submarine (SSBN) crew. They are responsible and trained 
to protect nuclear weapons while on board the submarine. In 
addition, these marines, sailors, and any Navy employee that 
performs a job that directly accesses nuclear weapons, are 
placed in our Personal Reliability Program. Any security 
program is dependent on meeting the system requirements, and 
you need a strong inspection, testing, and exercise program. We 
regularly inspect and drill our systems and people to ensure 
that they exceed the requirements needed to protect these 
national assets.
    Prior to the attack on U.S.S. Cole in October 2000, the 
Navy was already taking positive steps to further improve the 
protection of our submarines at the two bases. We put in place 
a phased plan to provide additional security improvements over 
the next several years. The horrific events of September 11 
highlighted additional potential threats and vulnerabilities of 
both our nuclear weapons and strategic submarines. Since then, 
measures that were planned to be executed as part of the 
increased threat condition have been implemented. These 
measures include: activation of auxiliary security forces, 
additional entry inspections, additional water front boat 
patrols, increased access control measures, and temporary over-
flight restrictions.
    We continue to work on long-term solutions to counter these 
threats. In summary, we have a robust nuclear weapons security 
system in place and we rigorously inspect and test that system. 
We continue to assess our vulnerabilities and we're making 
improvements to systems to counter potential new threats. It's 
for this reason I can tell you today that I have high 
confidence in the Navy's nuclear weapons security program. 
Thank you, Mr. Chairman.
    [The joint prepared statement of Rear Admiral Dwyer and 
Rear Admiral Griffiths follows:]
Joint Prepared Statement by RADM Dennis M. Dwyer, USN, and RADM Charles 
                         H. Griffiths, Jr., USN
    Thank you for inviting us to brief the subcommittee on the security 
provisions in place at our Navy nuclear weapons storage facilities and 
strategic submarine bases. As Director for the Navy's Strategic Systems 
Programs, I am responsible for production, support and storage of our 
nuclear weapons ashore. Accompanying me today is Rear Admiral Charles 
Griffiths, Commander, Submarine Group 9, the commander of the nuclear-
powered ballistic missile submarines (SSBNs) in the Pacific. He will 
join me in briefing security at our SSBN bases in the next session. 
This is in general a good news story. We do have significant 
challenges, but I can say with confidence that Navy nuclear weapons, a 
vital national asset, are safe and secure.
    These weapons are protected by a sophisticated system involving 
three components: unique facilities, specialized hardware, and highly 
trained people. I'd like to take a moment to describe each of these 
elements of our nuclear weapons security system.
    In the Navy, we have a policy to deny access, by unauthorized 
personnel, to our nuclear weapons. We use multiple perimeters for 
layered security and also have Recapture Tactics Teams available at all 
times as added insurance. From the moment we receive these weapons from 
the National Nuclear Security Administration, they are stored in a high 
security area called a ``limited area.'' The limited areas at both 
Strategic Weapons Facilities are encircled by high security fences and 
state-of-the-art electronic security systems. These systems are 
augmented by manned 70-foot-high guard towers, a suite of intrusion 
detection sensors, coupled with closed-circuit television and high 
intensity lighting. This provides the ability to monitor and detect any 
unauthorized attempt to breach the limited area. Whenever the weapons 
are moved from building to building as part of the maintenance and 
missile assembly process in the limited area, they are enclosed in 
specially designed containers and vehicles, which protect them from 
hostile environments.
    An important component of our nuclear weapon security system is the 
Marine Corps security force assigned to the two facilities. The sole 
responsibility of the Marine Corps security force is to prevent 
unauthorized access or theft of the nuclear weapons, and, should that 
fail, to immediately recapture them. These specially screened, trained, 
and armed professionals are on the highest state of alert 24 hours a 
day. Another important element of the security program is the SSBN 
crew, who are responsible for and trained to protect the nuclear 
weapons while on the submarine. In addition, the marines, sailors, and 
anyone authorized access to nuclear weapons to perform their job are 
screened, trained and placed in our Personnel Reliability Program. This 
program adds assurance that only the most qualified and trustworthy 
people have access to nuclear weapons.
    An important element of ensuring that any security system meets 
requirements imposed by the threat is a robust inspection, testing and 
exercise program. We regularly inspect and drill our systems and people 
to ensure that they exceed the requirements needed to protect these 
national assets.
    Prior to the attack on the U.S.S. Cole in October 2000, the Navy 
was taking positive steps to further improve the protection of our 
submarines at the two bases. We have a phased plan to provide 
additional security improvements over the next several years.
    The horrific events of 11 September highlighted additional 
potential threats to and vulnerabilities of both our nuclear weapons 
and strategic submarines. Since then, measures that were planned to be 
executed as part of increased threat conditions have been implemented. 
Measures that have been implemented in response to higher threat 
conditions include: activation of the auxiliary security force, 
additional entry inspections, additional waterfront boat patrols, 
increased access control measures, and temporary overflight 
restrictions. We continue to work on long-term solutions to counter 
these threats.
    In summary, we have a robust nuclear weapons security system in 
place and we rigorously inspect and test that system to ensure that it 
exceeds our requirements. We continue to assess our vulnerabilities and 
we are making improvements to that system to counter potential new 
threats. It's for these reasons that I can tell you today that I have 
high confidence that the Navy's nuclear weapons are safe and secure.

    Senator Reed. Thank you very much, Admiral.
    General Haeckel.

STATEMENT OF BRIG. GEN. RONALD J. HAECKEL, USAF, ACTING DEPUTY 
 ADMINISTRATOR FOR DEFENSE PROGRAMS, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    General Haeckel. Mr. Chairman, Senator Allard, I'm very 
pleased to be here this afternoon to discuss the safety and 
security philosophy that guides National Nuclear Security 
Administration operations, as well as the decisive actions we 
took following the tragic events of September 11, and our on-
going activities to further enhance our security posture. While 
I've been the acting deputy administrator for only 3 months, 
I've been deeply impressed with the skill, dedication, and 
commitment of the men and women who make up the NNSA and meet 
their mission requirements to implement new and tougher 
security practices.
    The security and safety of our nuclear weapons and nuclear 
material stockpiles, as well as our facilities and personnel, 
are critical for the success of my program responsibilities. 
These have always been one of the highest priorities of the 
Department of Energy and the National Nuclear Security 
Administration. Our nuclear weapons complex is a one-of-a-kind 
operation spread over seven states and employing some 25,000 
people. Each site has a distinct mission with highly 
specialized equipment, tooling, materials, and workforce. The 
security and safety of this unique enterprise is maintained 
through thorough and detailed procedures, with sophisticated 
state-of-the-art equipment, and a well trained, highly 
motivated security force.
    The transportation of nuclear weapons and special nuclear 
material between our sites, and to and from our military users, 
is a unique challenge. As you saw this morning, when you and 
your staff were at Andrews Air Force Base, cargo is transported 
in highly modified tractor trailers operated by armed Federal 
agents and accompanied by other Federal agents in escort, 
communications, and other convoy vehicles. These agents are 
authorized by the Atomic Energy Act to make arrests and carry 
and use firearms in the performance of their duties.
    The transportation fleet includes safeguard transporters, 
safe secure trailers, armored tractors, and escort vehicles 
with special safety and security features. Our safety record, 
over 100 million miles of over-the-road experience with no 
accidents causing a fatality or release of radioactive 
material, is a testament to the skill and dedication of these 
Federal agents. Of course, the nuclear weapons themselves have 
built-in safety features, and many incorporate unique use-
control devices to ensure that an accident or abnormal 
environment will not lead to a nuclear yield or the scattering 
of radioactive material. In the highly unlikely event of an 
accident or incident involving nuclear materials, the NNSA also 
maintains special emergency response assets to contain or limit 
the contamination. Because of the importance of these issues, I 
have asked several subject-matter experts to join us this 
afternoon in the executive session to go into greater detail on 
the subjects I just touched upon.
    Let me now turn to our actions following the attacks on the 
United States, which have dramatically changed all of our 
lives. For NNSA, it expanded the threats to our vital nuclear 
assets to include high-energy explosive attacks at multiple 
locations that are well planned, sophisticated, and involve 
many people. Immediately following the second plane crash into 
the World Trade Center, and before the third and fourth 
crashes, the NNSA went into a heightened alert posture. We 
secured our weapons, our nuclear materials, our facilities, and 
our people. Weapon convoys went to a safe haven. All convoys 
were off the road in an hour and a half. Barriers were set up 
to restrict traffic, and anyone or anything entering our sites 
was carefully inspected. Emergency operation centers were 
immediately staffed and operated around the clock to keep 
communications open, perform vital coordination, and 
continually assess the security situation. Our emergency 
response teams went on heightened alert at the first moment of 
the crisis and were deployed to New York to assist in recovery, 
while others remained poised for a possible follow-on event.
    NNSA personnel fully support the strengthened security 
measured despite some inconveniences created in the day-to-day 
work environment. We remain in heightened security with special 
emphasis on high-energy explosive threats. We expect to be at 
this level for some time and remain poised to return to even 
higher security levels if conditions should warrant. We must 
implement permanent measures that will better protect our 
people and mission, but at the same time permit us to operate 
effectively and efficiently. This requires us to utilize 
technology and to capitalize on the great capabilities within 
the NNSA.
    With the above in mind, our NNSA administrator, Gen. John 
A. Gordon, USAF (Ret.), has instituted several on-going 
initiatives designed to further make the NNSA security posture 
strong and visible so as to deter terrorists. At the same time, 
NNSA will continue to provide support to other agencies in 
accordance with their needs. The week after the September 11 
terrorist attack, General Gordon directed that a vulnerability 
assessment of our high-risk targets be completed.
    This 72-hour security review rated our facilities, 
laboratories, and associated assets against six criteria. Those 
were: nuclear detonation, radiological dispersion, loss of 
program capability, loss of technical staff, loss of life, and 
costs. A prioritized list of security improvements has been 
compiled to address the concerns from the study and are being 
validated for possible supplemental funding requests.
    In addition, the 90-day combat terrorism task force has 
been established to review headquarters and field actions to 
protect NNSA interests in the aftermath of the September 11 
terrorist attacks. Twelve tasks have been initiated and are 
staffed with the best expertise available. These tasks range 
from deployment of a revised design basis threat document to 
site-by-site security reviews and vulnerability assessments.
    Where are we today? Immediate actions have been taken to 
address the September 11 events and NNSA remains in an elevated 
security posture. All sites are back to work and our nuclear 
material convoys are moving. NNSA specialized assets remain on 
alert and will be deployed when needed. The NNSA combating 
terrorism task-force is energized and making progress. 
Consistent with task-force efforts, we have identified and 
prioritized additional actions which may require supplemental 
resources.
    We're maintaining close ties with the intelligence and law 
enforcement community, and are a member of the White House 
Counterterrorism Task Force. All of us in the National Nuclear 
Security Administration recognize how vital our mission is to 
national security. While the recent terrorist attacks have 
dramatically changed things, we'll remain at the highest levels 
of security for the nuclear weapons and materials in our 
custody. Thank you for your continued support and I'll be happy 
to answer your questions at this time.
    [The prepared statement of Brigadier General Haeckel 
follows:]
        Prepared Statement by Brig. Gen. Ronald J. Haeckel, USAF
                                overview
    Mr. Chairman and members of the subcommittee, the security and 
safety of our nuclear weapons and nuclear material stockpiles, as well 
as our facilities and personnel is the highest priority of the National 
Nuclear Security Administration (NNSA).
    Our nuclear weapons complex is a one-of-a-kind operation, spread 
over seven states and employing some 25,000 people. Each site has a 
distinct mission with highly specialized equipment, tooling, materials 
and workforce. The security and safety of this unique enterprise is 
maintained through thorough and detailed procedures, training and with 
sophisticated state-of-the-art equipment. The transportation of nuclear 
weapons and special nuclear material between our sites and to and from 
our military users within the continental United States likewise 
presents us with a unique challenge that we meet by developing and 
using the best technology available at our plants and labs. Our success 
can be judged by the fact that since 1975 we have accumulated over 100 
million miles of over-the-road experience with no accidents causing a 
fatality or release of radioactive material.
    The nuclear weapons themselves have built-in safety features and 
many incorporate unique use control devices to ensure that an accident 
or abnormal environment will not lead to a nuclear yield or the 
scattering or radioactive material over a wide area. In the event of an 
accident or incident involving nuclear materials the NNSA also 
maintains special emergency response assets to contain or limit the 
contamination.
                           facility security
    The security of our nuclear sites and facilities has always 
employed ``defense in depth'' protection. The first line of defense is 
our protective forces which are over 3,300 strong. In addition, we have 
450 special response team members trained in special recapture/recovery 
tactics located at our special nuclear material and weapon sites. Our 
protective forces are well equipped with hardened vehicles, semi-
automatic handguns, assault-type weapons, body armor, digital encrypted 
radios, protective masks, and night vision and thermal imaging 
equipment.
    We make use of the most sophisticated state-of-the-art perimeter 
and interior intrusion detection and assessment equipment along with 
delay entry systems at hardened storage vaults for our nuclear assets. 
In addition, we have hardened critical guard posts and make use of 
hardened guard towers at several locations. NNSA has also hardened and 
technologically upgraded all of its alarm stations and has 
compartmentalized access to sensitive facilities and nuclear assets 
through the use of the most advanced access control systems available. 
Personnel access control is monitored by visual badge checks by the 
protective force, badge swipes, personnel identification number, hand 
geometry, personal weight verification, X-ray and metal detection, or a 
combination of these methods.
                             cyber security
    All of our nuclear weapons information assets and computing 
resources at our various sites are protected by firewalls, intrusion 
detection systems, and software which automatically scans for malicious 
viruses. Classified assets and systems are also physically separated 
from the unclassified and sensitive computing systems for greater 
security. These cyber security defenses are continuously examined 
through a program of self-assessments, site peer reviews, and 
independent oversight organizations.
                           personnel security
    We also have human reliability programs covering over 14,000 
employees with access to nuclear material/weapons, or have been 
determined to occupy positions that, if abused could cause damage to 
the health and safety of the public, environment, our work force, and/
or national security. These reliability programs require annual 
certification of reliability through maintenance of a top secret 
clearance, physiological interviews and testing, medical evaluations, 
alcohol and drug testing, security file reviews, and supervision and 
peer observations.
    Our defense-in-depth approach is rigorously assessed through 
computer modeling and performance tested against the design basis 
threat through actual force-on-force exercises in the completion of a 
vulnerability analysis at each nuclear material/weapon site and for the 
transportation of our nuclear assets. The results of the vulnerability 
analysis are documented annually in a Site Safeguards and Security Plan 
approved by the operations manager and concurred in by myself. As with 
any critical program, the effectiveness of our facility protection 
postures is validated through internal as well as external independent 
oversight reviews.
                        transportation security
    The overall management, command and control of our transportation 
assets are centralized in Albuquerque, New Mexico, and includes a fully 
staffed, 24-hours-a-day, 365-days-a-year, operations center. The center 
monitors vehicle status and location; and maintains real-time 
communications with every convoy. The center also maintains an 
emergency contact directory of Federal and state response organizations 
located throughout the contiguous United States in the event of an 
accident or hostile actions. Liaison is also maintained with law 
enforcement and public safety agencies throughout the country, making 
them aware of our transportation mission. Law enforcement officers are 
provided information to assist them in recognizing our vehicles should 
they be involved in an event, and what actions to take in conjunction 
with the actions of the Federal agents.
    Cargo is transported in highly modified tractor-trailers operated 
by armed Federal agents and accompanied by other Federal agents in 
escort, communications, and other convoy vehicles. Federal agents are 
authorized by the Atomic Energy Act to make arrests and carry and use 
firearms in the performance of their duties. Federal agents are 
certified following a rigorous training course and receive on-the-job 
training the balance of their first year. Agents continue to receive 
in-service training throughout their careers and must continue to meet 
regular and demanding qualification requirements relative to weapons, 
tactics, physical fitness, and driving proficiency. The transportation 
fleet includes safeguards transporters, safe secure trailers, armored 
tractors and escort vehicles, which all incorporate special safety and 
security features. The trailers have access delay systems to deny 
unauthorized access to materials.
                            warhead security
    The NNSA and its laboratories take every possible measure to 
prevent accidents involving nuclear weapons and to prevent them from 
getting into the wrong hands. The enduring nuclear weapons stockpile 
was built from the early 1960s through the late 1980s. Some weapons 
alterations/modifications have been performed to address specific 
safety and use control concerns. Extensive joint reviews are conducted 
with the Department of Defense to develop a Stockpile Life Extension 
Program (SLEP) to refurbish weapons not only to ensure continued 
reliability but also to ensure that the latest safety and use control 
features are incorporated into our stockpile. The Nuclear Weapons 
Council oversees the U.S. nuclear weapons stockpile, monitors its 
safety and security, and provides yearly status reports to the 
President and Congress.
    Use control features incorporated into our weapons or weapons 
systems are to ensure that these weapons only operate when properly 
authorized by the President of the United States and to prevent 
deliberate unauthorized use. Use control features include: Permissive 
Action Links, which are electronic locks inside the nuclear weapon that 
prevent it from being detonated until the proper externally obtained 
unlock code is inserted; command disable features, which permit 
nonviolent disablement of a nuclear weapon by destroying critical 
components if loss of control is imminent; and active protection 
systems, designed to make it possible to automatically disable critical 
components within the weapon upon sensing an intrusion by an adversary.
    Safety features incorporated into our nuclear weapons include: 
Enhanced Nuclear Detonation Safety (ENDS), Insensitive High Explosives 
(IHE), and Fire-Resistant Pits (FRP). ENDS prevents the electrical 
system within the weapon from accidentally firing the detonators if 
involved in an accident. All but one of the nuclear weapons types in 
the stockpile have ENDS; the one that does not employ ENDS and that 
system is scheduled for retirement. IHE, unlike conventional high 
explosives, is highly resistant to unintended detonation, significantly 
reducing the likelihood of scattering radioactive materials in an 
accident. Only four weapons types (missile warheads) contain 
conventional high explosives. To mitigate the unlikely event of a high 
temperature fire involving a nuclear weapon, three of the last four 
weapon designs have incorporated a pit coating capable of providing 
additional safety in fire accident scenarios. Overall, these measures 
are judged to limit the chance of a weapon producing a nuclear yield if 
involved in an accident to one chance in a million. They also are 
judged to limit the chance of a weapon pre-arming, arming, launching, 
or releasing in all normal and credible abnormal environments to one in 
a billion and one in a million, respectively.
                           emergency response
    In the event of a nuclear or radiological incident, the Department 
maintains specialized teams which can be readily deployed to respond to 
the entire spectrum of nuclear and radiological issues. The Nuclear 
Emergency Support Team (NEST), is an umbrella organization of 
specialized crisis response assets. The Accident Response Group is a 
team of scientific and technical experts ready to react to any accident 
or incident involving one of our own nuclear weapons. The Search 
Response Team conducts searches via ground and air for lost, stolen, or 
missing weapons, devices, or nuclear material. There is also a Nuclear/
Radiological Advisory Team of subject matter experts here in 
Washington, D.C. to support the FBI and the Department of State. There 
are also advisory teams to support the Department of Defense special 
mission units and to advise and assist in the neutralization and 
movement of nuclear devices. It is important to note that NEST operates 
only in areas secured by law enforcement or the military.
    In addition to NEST, the Department also maintains some twenty-six 
radiological assistance teams arrayed across the Nation to conduct 
radiological measurements, to characterize releases and to provide 
advice and guidance to state and local authorities. The Department also 
provides expert medical assistance for radiation exposure accidents 
through our facility in Oak Ridge, Tennessee. We also establish and 
manage the coordination of all Federal radiological monitoring and 
assessment functions for any nuclear or radiological incident. All the 
individuals on these teams are volunteers from across the complex. They 
are scientists, physicists, engineers, technicians, and other 
specialists that volunteer for this duty. We could not perform these 
vital functions without them.
                              september 11
    The terrorist events of September 11, 2001, have changed all of our 
lives. For NNSA it expanded the threats to our vital nuclear assets to 
include high energy explosive attacks at multiple locations that are 
well planned and sophisticated, and involve many people. Let me review 
the actions taken to address this new threat and on-going efforts to 
further mitigate this escalated threat.
    Immediately following the second plane crash into the World Trade 
Center, and before the third and fourth crashes, the NNSA went to full 
alert. We secured our weapons, our nuclear materials, our facilities 
and our people. Weapon convoys went to safe havens and all were off the 
roads in an hour and a half. Numerous barriers were set up to restrict 
traffic, and anyone or anything entering our sites were carefully 
inspected. Emergency operations centers were immediately staffed and 
operated around-the-clock to keep communications open, perform vital 
coordination, and continually assess the security situation. Our 
emergency response teams went on heightened alert at the first moment 
of the crisis and were deployed to New York to assist in recovery while 
others remained poised for a possible follow-on event.
    Our protective forces are highly trained, well equipped and remain 
energized and motivated even in light of long hours of work. Operations 
Offices, Plant and Laboratory Directors, and staff are vigilant and 
prepared for high-energy explosive attacks that were not previously 
contemplated.
    NNSA personnel fully support the strengthened security measures 
despite some inconveniences created in the day to day work environment. 
We remain at heightened security with special emphasis on high-energy 
explosive threats. We expect to be at this level for some time and 
remain poised to return to even higher security levels if conditions 
should warrant.
    We must implement permanent measures that will better protect our 
people and mission but at the same time permit us to operate 
effectively and efficiently. This requires us to utilize technology and 
to capitalize on the great capabilities resident within the NNSA.
    With the above in mind, General Gordon has instituted several on-
going initiatives designed to further make the NNSA security posture 
strong and visible so as to deter terrorists. At the same time, NNSA 
will continue to provide support to other agencies in accordance with 
their needs. We will apply the unique capabilities of our laboratories 
and plants in seeking innovative approaches to strengthening NNSA and 
U.S. counterterrorism efforts.
    The weekend after the September 11, 2001, terrorist attack, General 
Gordon directed that a vulnerability assessment of our high-risk 
targets be completed. This ``72-hour security review'' rated our 
facilities and laboratories and associated assets against six criteria 
(nuclear detonation, radiological dispersion, loss of program 
capability, loss of technical staff, loss of life, and costs). A 
prioritized list of security improvements has been compiled to address 
the concerns from the study and are being validated for a supplemental 
funding request. We plan to apply resources against the greatest needs 
and will see the work through to completion.
    In addition, a 90-day Combating Terrorism Task Force (CTTF) has 
been established to review Headquarters and field actions to protect 
NNSA interests in the aftermath of the terrorist attacks of September 
11, 2001. Twelve tasks have been initiated and are staffed with the 
best expertise available. These tasks include development of a revised 
design basis threat document; site-by-site security review and 
vulnerability assessments; protection of our cyber data and resources; 
assessment of current nuclear materials management practices; personnel 
security review; transportation security review; chemical, biological, 
radiological and nuclear incident analysis assessment; contributions 
NNSA can make to other in counterterrorism; review of international 
programs; chemical/ biological detectors and sensors; emergency 
management review; and defining the complex of the future.
    General Gordon has directed the NNSA to protect ourselves, continue 
to perform our mission, and assist others where possible.
    To protect ourselves we want security forces that are so efficient 
and effective, and facilities that are so strong that a terrorist will 
see no chance of success and take his business elsewhere. The weapons 
and material we have custody of demand no less.
    It is understood that the war on terrorism will last for years and 
therefore one must be able to accomplish our mission in an enhanced 
security environment. We must carry out normal stockpile stewardship--
production, surveillance, refurbishment--and meet DOD delivery 
requirements.
    With the great talent and the taxpayer's investment in our 
enterprise, we must make our skills and technology available to others. 
We will continue to keep our emergency response assets ready to deploy 
to assist--even as we look to improve them. We are bringing together 
our multitude of capabilities to make certain other agencies know how 
we can help with their problems. We are also looking to accelerate 
materials protection control and accountability work and reactor safety 
internationally.
    So where are we today? Immediate actions have been taken to address 
the September 11, 2001, events and NNSA remains in an elevated security 
posture. However, all sites are back to work and our nuclear material 
convoys are moving. NNSA specialized assets remain on alert and will be 
deployed when needed. The NNSA Combating Terrorism Task Force is 
energized and making progress. Consistent with the Task Force efforts, 
we have identified and prioritized additional actions which will 
require supplemental resources. We are maintaining close ties with the 
intelligence and law enforcement community and are a member of the 
White House Counterterrorism Task Force.
    All of us at the National Nuclear Security Administration recognize 
how vital our mission is to National Security. While the recent 
terrorist attacks have dramatically changed things, we will maintain 
the highest levels of security for the nuclear weapons and materials in 
our custody.

    Senator Reed. Thank you very much, General Haeckel, and 
thank you gentlemen for your testimony. We've been joined by 
Senator Ben Nelson. Senator, would you like to make an opening 
statement?

            STATEMENT OF SENATOR E. BENJAMIN NELSON

    Senator Ben Nelson. Thank you very much, Mr. Chairman. 
Thank you to all the panelists who are here today. I think most 
of the questions I'm going to ask might be more appropriate in 
the closed session. I'm very anxious to learn as much as I can 
about the security of our nuclear weapons and materials. Thank 
you.
    Senator Reed. Thank you, Senator. Senator Nelson has 
reminded us again that this is the open session. We will 
reconvene in a closed session at the conclusion of the 
questioning period. Let me go ahead and ask a few questions and 
then turn to Senator Allard for his questions.
    A frightening conclusion drawn from September 11 is that we 
no longer have only to protect against the threat of the use of 
nuclear weapons, we have to protect against suicidal attempts 
to detonate those weapons within the United States and 
elsewhere. That was a psychological barrier I think we crossed 
on September 11. Having said that, I wonder Secretary Wells, 
whether you've made any specific changes to policy that reflect 
not only that particular insight, but any other insights based 
on September 11?
    Dr. Wells. Mr. Chairman, we have. There actually were a 
number of initiatives underway before September 11 which were 
crystallized, if you will, by that. There's been a robust 
exercise program for some years that has tested different parts 
of the security system, and some of those have emphasized the 
importance of time to react. So, we have codified that into 
policy. In addition, we are reviewing what the postulated or 
design-basis threat is against which the security system should 
be designed, and that is in coordination--revised and been 
agreed upon between the Department of Energy and Department of 
Defense--step and we're getting that formally coordinated.
    Senator Reed. In terms of going forward, do you see any 
particular areas that need additional improvement other than 
those you've identified?
    Dr. Wells. I think the general area of senior-level 
emphasis on the areas of nuclear weapons is something that has 
been an important focus for each of the services. Many of us 
have custody, but I would expect that we will see even more of 
that emphasis in the future.
    Senator Reed. Thank you. One other question, Dr. Wells. In 
terms of personnel security programs, are you evaluating or re-
evaluating the policy towards personnel security?
    Dr. Wells. The Personnel Reliability Program (PRP) and the 
two-person controls that go with it have always been, I think, 
one of the stronger points of the nuclear weapons security 
program. One of the things that we have to be cognizant of in 
the wake of September 11 is the possibility of an insider 
threat which has always been there but that crystallized after 
September 11. The Personnel Reliability Program gives us, 
through the two-person control and the checks on the 
reliability of the people involved, a powerful weapon against 
that. I think that has stood the test of time and will be able 
to be continued.
    I think all of us, as I say, are more aware of the insider 
threat. That will probably get more attention. I can't tell you 
any policy changes at this point that will stem from that, 
though.
    Senator Reed. Thank you, Dr. Wells. Let me turn to General 
Haeckel. The Department of Energy has requested $117 million in 
additional funds for improved security, of which $106 million 
is for nuclear weapons activities. Could you outline generally 
what this additional money will buy in terms of improvements? 
What are your areas of concern, and are there other areas that 
should be addressed and additional resources committed to solve 
those problems or allay those concerns?
    General Haeckel. Supplemental funds of $106 million were 
requested. Of those funds that were requested, $66 million were 
for overtime and additional protective forces across the 
complex. Twenty-five million of that was for cyber-security 
measures, such as intrusion detection and response systems. 
Another $15 million was for secure transportation assets, and 
additional monies for those secure transportation assets that 
you observed today, sir.
    At this time, we believe the administration's request is 
sufficient. We're continuing to look at the requirements and 
better things to do. We're continuing through our 12-team 
process to look at extra security measures that we think are 
prudent to do in the near-future, in the far-future. At that 
time, there may be additional supplemental activity.
    Senator Reed. Let me also ask, it seems that the basic 
operating cost of each Department has gone up. Is that the case 
too, as you anticipate it?
    General Haeckel. My understanding of overhead costs is that 
we are doing more with our existing overhead as far as 
headquarters personnel and field leadership is concerned.
    Senator Reed. You have a limited number of agents, of whom 
many are now working probably twice as long as they did 3 or 4 
months ago in overtime.
    General Haeckel. Yes sir.
    Senator Reed. That is not likely to go away in the next 
year. That automatically means that you have to ask for 
increased funds. Is that a clear assumption?
    General Haeckel. Yes sir, it is. That would be something 
we'd have to look at very carefully. If we did submit an 
additional request in the future for additional security 
forces, guards that we do need, we would be committing to a 
long-term investment in those personnel costs. We would have to 
make arrangements for additional funding in the out-years and 
watch that throughout our 5-year national security plan.
    Senator Reed. My final question is on national 
infrastructure, which I know in the DOE and the DOD has been a 
constant struggle. Do you see yourselves coming to the point 
where you have to borrow from needed modernization 
improvements, the infrastructure, to simply pay the bills and 
keep the lights going for security purposes?
    General Haeckel. My desire is to have a balanced approach 
to the budget and do as much as we can in each of the areas. 
The three major areas that I'm concerned with are the 
production and refurbishment activities, the research and 
development scientific activities, and then the infrastructure 
and facilities activities. We are currently looking at our 
budget and trying to balance those to the best of our ability, 
doing the most important thing in each of those categories 
first, and walking down through that.
    Senator Reed. Thank you very much, General. Let me turn to 
ask Admiral Dwyer and General Blaisdell the same question. Does 
your department have additional requirements and requests that 
require funds for improved security, and are these funds 
included in the supplemental or the budget documents that 
you're forwarding to your service chiefs, the Secretary of 
Defense, and then on to the administration? Admiral Dwyer.
    Admiral Dwyer. Yes, Mr. Chairman, after September 11 and 
even prior to September 11, after the U.S.S. Cole incident we 
were asked to put together a list to define the mitigating 
factors we put in place for these threats, basically in 
personnel, high-tech barriers, and high-tech intrusion devices, 
those types of things which were put into the list and that are 
in the supplemental as it goes forward.
    Senator Reed. Thank you. General Blaisdell.
    General Blaisdell. Yes, Mr. Chairman, as a matter of fact I 
have with me today Brig. Gen. Jim Shamess, who is our director 
of security forces, and he will have more to say in the 
classified session of this hearing. General Shamess, as 
director of security, has a nuclear security roadmap and task 
force that they have put together. Just recently, Air Combat 
Command has briefed us with combat mission needs statements. 
It's a little too early to put together all of the dollar 
figures, but suffice it to say that not only barriers but 
intrusion devices and several others that we'll get into in the 
classified session are on there, and are greatly needed to 
improve our capability.
    Also, there is a full program on going with each of the 
commands as they're putting together their requirements for 
weapons storage areas and other opportunities. So, Mr. 
Chairman, I think we have a good package prepared.
    Senator Reed. Thank you.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman, members of the 
panel. On September 11, when the attack took place, we 
basically considered ourselves in a peacetime mode. Since then, 
our country has declared war on terrorism, particularly in 
recent days having seen some of the papers that have been 
gathered from the headquarters of al Qaeda. We've become aware 
that nuclear weapons and nuclear materials were a high priority 
for at least that terrorist organization, and probably others.
    In light of that, have security standards been increased 
since September 11? I'd like to have all four of you respond to 
that, if you would.
    General Blaisdell. Certainly, I'd be happy to start, 
Senator. In the Air Force, and you're absolutely correct on 
levels going up in light of what has been found from al Qaeda, 
we have increased our force-protection levels throughout the 
United States Air Force. Likewise, we have gone through a 
combat air patrol that you're familiar with, part of Operation 
Noble Eagle, in light of the intelligence that's available. 
Probably the best way to explain all of this is our defense in-
depth concept, based on the intelligence that we get--the FBI 
and the inter-agency working right down to the security, the 
fence line, the ability to bring security forces to bear, the 
whole defense in-depth program, the way we work with DOE safety 
procedures and weapons, that whole defense in-depth program is 
going to try to prevent that.
    Senator Allard. General Haeckel, do you want to elaborate 
on that?
    General Haeckel. The security standards were increased in 
DOE facilities in three different ways that I can describe to 
you. The first is cyber-security. We've had in recent years 
very good insight into cyber-security for our computer 
technologies. We've increased our vigilance and awareness of 
that.
    That leads into the second area that I want to mention, 
which is our concern for operational security (OPSEC) both on 
the cyber-side, the physical side, and the day-to-day 
discussions making sure we protect those pieces of information 
that we think would give insight into our operations and of 
strategic nuclear materials.
    Third, the physical side of it, the most visible side, as I 
mentioned we went into a heightened state of security condition 
immediately after the travesty occurred. We continue that 
heightened state of security for some time and then, based on 
our analysis of current threats, we've backed off to a more 
appropriate, maintainable, and sustainable security condition 
by increasing security entry procedures, increasing physical 
distance standoff from vehicle parking areas to specific 
buildings, and in general making our population within the 
Department of Energy more aware of terrorists activities that 
could occur and encourage reporting procedures.
    Senator Allard. Rear Admiral Dwyer.
    Admiral Dwyer. Yes sir, Senator, in our weapons storage 
areas, our Marine Corps security force companies have always 
been at the highest alert, 365 days a year, 24 hours a day. So 
they are always at the highest threat condition and remain so 
during threat condition Delta and Charlie, which we had at that 
time. Most of the action for us is at our waterfront, where our 
submarines are, where we have auxiliary security forces which 
deployed. We increased our entry procedures into those areas 
and we also imposed temporary flight restrictions which limit 
the air traffic over these submarine bases.
    Senator Allard. Secretary Wells, we'll let you wrap it up 
if you have anything else you want to add?
    Dr. Wells. From a policy perspective, Senator, since 
September 11 we have directed more rapid responses in the case 
of instincts involving possible attempts to take over a weapon. 
We have also taken steps to ensure that personnel assigned to 
nuclear weapon security duties are not drawn off for temporary 
duty in other areas, thus emphasizing the importance of nuclear 
weapons security even in the face of Operation Enduring Freedom 
overseas. We've also worked with the intelligence community to 
get a revision to the threat assessment against nuclear weapons 
which, of course, will permeate all of the future policy 
documents.
    Senator Allard. You've done a nice job of talking about 
what you've done in stationary sources. I'd like to now move to 
mobile sources. We have some nuclear materials that necessarily 
have to travel through one mode or another, and my question is, 
have the delays caused by September 11 within the National 
Nuclear Security Administration had any impact in delaying 
other DOE shipments, for example in the Environmental 
Management program?
    General Haeckel. There were delays, sir. We stood down 
operations for security purposefully to re-group, re-orient 
ourselves, and make sure we understood what potential threats 
were out there. Over the last couple of months, and over the 
next months we will regain that ground in different areas and 
different ways and be back on track with our program.
    Senator Allard. On the resources that are shared between 
NNSA and Environmental Management, if we have delays in the 
NNSA, will those have an impact on the Environmental Management 
program and cause delays in one or the other of the two?
    General Haeckel. Sir, as Defense Programs representative, I 
work very closely with our Environmental Management personnel. 
As a matter of fact, I was just discussing this very same issue 
earlier this afternoon, and we are working together, instead of 
competing, with the limited resources we have to identify the 
highest priorities on a continual basis and allocate our 
resources for those highest priorities. But just like on my 
budget discussions, there are things that we want to do on the 
weapons program side and things we want to do on the 
Environmental Management side. The personnel in Environmental 
Management and myself are committed to making sure we get those 
things done on a parallel track.
    Senator Allard. Mr. Chairman, I just wanted to wrap up with 
one final, short question. As you're moving these materials 
across the country, I assume that you're avoiding high-risk 
areas such as high passes where you have snow slides, or 
tunnels and various bridges, and I would like to hear your 
comment in that regard.
    General Haeckel. We can get into that in the classified 
session, but I have the highest confidence in our transporters, 
that they will make the calls on the scenes and avoid the risks 
that they identify as high, whether it be potential terrorists 
or potential snow slide, and make sure that our number one 
priority is that our assets are delivered carefully and 
precisely and safely.
    Senator Allard. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Allard. I'd like to 
recognize Senator Nelson for his round of questioning and then 
Senator Sessions for his opening statement and his round of 
questioning.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman, and thank you 
again for calling this hearing to deal with this very important 
issue. We've talked primarily about weapons and the security 
that must be in place to protect weapons, both stationary and 
in transit. I'd like to ask something with respect to nuclear 
power plants and other nuclear material. Is there a protocol 
between the military, the DOE, and the NRC as it might relate 
to the security of that nuclear material? Anyone who might want 
to respond to that?
    Dr. Wells. I'm not aware of any with the NRC, Senator. Let 
me take that for the record and I'll get back to you.
    General Haeckel. I'll take that for the DOE side, sir.
    [The information follows:]

    Dr. Wells. The only security protocol/agreement that exists between 
NRC and DOD is an ``Industrial Security Agreement'' related to the 
``National Industrial Security Program'' (NISP).
    However, Executive Order 12656, (November 18, 1988), does assign 
responsibilities during emergencies. In part five of the E.O., the 
Department of Defense is tasked ``in consultation with the Secretaries 
of State and Energy, the Director of the Federal Emergency Management 
Agency, and others, as required, develop plans and capabilities for 
identifying, analyzing, mitigating, and responding to hazards related 
to nuclear weapons, materials, and devices; and maintain liaison, as 
appropriate, with the Secretary of Energy and the Members of the 
Nuclear Regulatory Commission to ensure the continuity of nuclear 
weapons production and the appropriate allocation of scarce resources, 
including the recapture of special nuclear materials from Nuclear 
Regulatory Commission licensees when appropriate.''
    Since the terrorist attacks on September 11, 2001, DOD, NRC, and 
DOE and other agencies have been cooperating extensively in response to 
the National emergency. This cooperation is occurring in accordance 
with the broad framework established under the Federal Radiological 
Emergency Response Plan, the Terrorism Annex of the National Response 
Plan, and Presidential Decision Directives 39, 62, and 63. NRC can 
formally request DOD assistance through the FBI to the Attorney General 
through the President to the Joint Chiefs and DOD.
    General Haeckel. At the present time there are no agreements or 
protocols between the department of Energy and the Nuclear Regulatory 
Commission (NRC) regarding the security of nuclear materials. however, 
in light of the events of September 11 and the transportation security 
expertise within the National Nuclear Security Administration's Office 
of Transportation Safeguards, both are working together on a 
comparability study for transportation of Category I and Category II 
nuclear material to allow the NRC to consider revising their 
transportation protection strategy. This study effort will be completed 
in September 2002.

    Senator Ben Nelson. Sure. I think it's clear that in moving 
material, whether it's from a power plant--and we can in the 
closed session talk about spent nuclear rods and other 
material--but in moving the material the utmost care is 
obvious. It hardly needs to be stated. When I was governor of 
Nebraska, as you may recall or will find out, one truck tipped 
over in transit in the State of Nebraska for a period of time 
that caused more than a slight embarrassment, it was in fact a 
major concern. Fortunately, it was out in the middle of the 
sand hills where there are more cattle than people, and the 
threat of a terrorist incident seemed rather unlikely.
    But I am concerned also about any kind of movement of other 
material, not just weapons, if we're going to be dealing with 
some of the concerns that have been offered and suggested with 
respect to not detonating nuclear devices, but those that 
spread nuclear material. So I will take that up in the closed 
session. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Nelson. Senator 
Sessions, if you'd like to make an opening statement and your 
questions, please go ahead.

               STATEMENT OF SENATOR JEFF SESSIONS

    Senator Sessions. Thank you, Mr. Chairman. Thank you for 
having this hearing. In recent weeks, I have just personally 
developed a very great concern about the danger of 
proliferation of nuclear weapons around the world. We 
particularly have to worry, I think, about the situation in the 
Former Soviet Union (FSU). I do not believe we are effectively 
meeting that challenge. I think that we're going to need to be 
better at meeting it. There are a lot of things that could be 
done to improve our effort in that regard, in partnership with 
the FSU, that could benefit both of us and help ensure that 
these kinds of weapons do not find themselves into the hands of 
terrorists like bin Laden.
    Obviously he would like to have had those kinds of weapons. 
His network would like to have them, and so we need to work on 
that. I think that also puts a burden on us, as a responsible 
world leader, to make sure our weapons are secure, and to 
protect the interests of the United States.
    Let me ask one question. The President has just talked 
about reducing the number of operationally-developed weapons to 
the range of 1,700 to 2,200, which would mean that we'll be de-
commissioning some weapons. Maybe Secretary Wells would be the 
appropriate person to ask: What kind of stresses does that put 
on you and those that will be involved in that? Do you foresee 
extra funding or other challenges that might arise? If you've 
answered that, I apologize.
    Dr. Wells. I think, Senator, clearly there will be costs 
associated with the draw-down of the overall weapons--the 
weapons we retire. It puts a premium on putting additional 
security on the weapons that remain. We are preparing a package 
to put in the counterterrorism supplemental for additional 
research and development on the security of nuclear weapons to 
support this sort of thing.
    Senator Sessions. Research and development in how to be 
more successful or better?
    Dr. Wells. How to apply new technologies, how to apply in 
denial of access and keeping the weapons safe.
    Senator Sessions. What about the draw-down on destruction, 
on rendering them inoperable? What is the mechanism of doing 
that and what kind of costs could be involved?
    Dr. Wells. Let me refer that to the NNSA, if I may.
    General Haeckel. Yes, sir, we've been looking at that for a 
couple of years as a case that may occur. We are currently 
devising and integrating a plan that we will execute over the 
next several years. Some of the things that we're looking at 
are the increased number of security personnel that we'll need, 
increased storage capacity that we may need, and also an 
increased number of movements that drives the security force 
personnel also, but increased number of movements and possible 
convoy assets that we would need.
    Senator Sessions. That would be in the short term, would it 
not? Once the weapons are de-commissioned it should be easier 
and less expensive. Will savings balance off the costs, I'll 
guess I'll ask it that way, in the long run?
    General Haeckel. No, sir, if I have a fleet of trucks, if I 
have 5,000 trucks or 1,700 trucks there's still a certain 
amount of mechanics that I need to service those, and spare 
parts that I need. So I don't see a one-for-one decrease in the 
overhead expenses, even if we do decrease the number of weapons 
that the United States currently has. So, as far as I know, as 
far as I have researched so far, it's not a one-for-one 
savings. There's still expenses in maintaining a stockpile that 
we'll have to face up to in the far term. In the near term, 
there are more expenses and more things that we'll have to do 
to make that happen.
    General Blaisdell. If I can help the General there, 
Senator, you may recall we were going to retire the Peacekeeper 
(MX) missile. Those particular warheads, in other sessions when 
I was here with Admiral Mies, I think with you, we mentioned 
that those are going on Minuteman missiles. So there will be 
some movements that the DOE needs to help us with, and there is 
a drawdown cost associated with taking Peacekeeper missiles off 
alert. There is also a study ongoing, and I think this is where 
your question is, there's an ongoing study from the 
requirements side, from the shooters' perspective, to our 
supplier. How many are inactive and how many are responsive, 
and we will have more to say about that once the Nuclear 
Posture Review comes to you all at the end of the month.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Reed. Thank you very much, Senator Sessions. Thank 
you very much, General, for your testimony.
    For the closed portion of this hearing, we will move to 
232A of the Russell Building. This session is only for those 
with appropriate clearances. I thank you all, and this open 
session is concluded.
    [Whereupon, at 3:23 p.m., the subcommittee adjourned and 
reconvened in closed session.]

                                 <all>

</pre></body></html>
